                                                                                Issue Date
                                                                                       January 26, 2012
                                                                                Audit Report Number
                                                                                       2012-PH-1005




TO:              Melanie N. Marston, Director, Office of Multifamily Housing, Washington,
                   DC, Field Office, 3GHMLAU
                 //signed//
FROM:            John P. Buck, Regional Inspector General for Audit, Philadelphia Region,
                    3AGA

SUBJECT:         Second Northwest Cooperative Homes Association, Washington, DC,
                 Did Not Identify and Remit Excess Income to HUD



                                            HIGHLIGHTS

    What We Audited and Why

                 We audited the Second Northwest Cooperative Homes Association’s
                 administration of the U.S. Department of Housing and Urban Development’s
                 (HUD) Section 236 program based on a hotline complaint. Our audit objective
                 was to determine whether the Association properly identified and remitted excess
                 income1 to HUD according to its regulatory agreement and whether it hired staff
                 according to applicable HUD regulations.




1
  HUD regulations at 24 CFR (Code of Federal Regulations) 236.60(a) define excess income as cash collected as
rent from the residents by the borrower on a unit-by-unit basis that is in excess of the HUD-approved unassisted
basic rent. The regulation further requires that excess income be returned to HUD monthly. Accordingly, Section 4
of the Association’s regulatory agreement with HUD required its members to pay the greater of either the basic rent
or market rent with specific adjustments based on each member’s income. The regulatory agreement further
stipulated that excess income must be remitted to HUD monthly.
What We Found


           The Association did not establish market rents for any of the program units as
           required and charged all of the members occupying program units basic rents.
           Thus, the Association did not properly identify excess income as required by its
           regulatory agreement and failed to remit at least $172,977 in excess income to
           HUD for its program units. It also did not always hire staff according to its own
           bylaws.


What We Recommend

           We recommend that the Director of HUD’s Washington, DC, Office of
           Multifamily Housing direct the Association to (1) immediately establish market
           rents and obtain HUD’s approval of the rents; (2) immediately recalculate rents for
           all members based on the most recent annual recertification performed; (3) remit to
           HUD $172,977 in excess income identified; and (4) identify and remit excess
           income for members occupying program units that were not reviewed during the
           audit. We also recommend that the Association establish and implement written
           policies and procedures to ensure that future tenant rents and excess income are
           properly calculated and excess income is remitted to HUD as required. Lastly, we
           recommend that the Association comply with its approved bylaws or obtain HUD’s
           written approval of its amended bylaws.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We provided a draft report to the Association on December 19, 2011. We
           discussed the report with the Association during the audit and at an exit
           conference on December 22, 2011. The Association provided written comments
           to our draft audit report on January 10, 2012. It disagreed with the findings in the
           report. The complete text of the auditee’s response, along with our evaluation of
           that response, can be found in appendix B of this report.




                                             2
                           TABLE OF CONTENTS

Background and Objective                                                           4

Results of Audit
      Finding 1: The Association Did Not Identify and Remit Excess Income to HUD   5
      as Required
      Finding 2: The Association Did Not Always Use Proper Hiring Practices        8

Scope and Methodology                                                              10

Internal Controls                                                                  11

Appendixes
   A. Schedule of Questioned Costs                                                 12
   B. Auditee Comments and OIG’s Evaluation                                        13
   C. Summary of Uncollected Excess Income                                         19




                                           3
                      BACKGROUND AND OBJECTIVE

The Second Northwest Cooperative Homes Association is a nonprofit entity organized in 1977.
Its mission is to provide housing in a manner that supports Section 236, Title II, of the National
Housing Act. The affairs of the Association are governed by a board of directors, which consists
of six members. The Association’s president is Annie L. Hill and its management agent is
Jeffery Charles and Associates. The Association is located at 1321 5th Street Northwest,
Washington, DC.

The U.S. Department of Housing and Urban Development (HUD) entered into a regulatory
agreement with the Association in 1977 for its Section 236-insured multifamily program. The
program, established by the Housing and Urban Development Act of 1968, combined Federal
mortgage insurance with interest reduction payments to the lender for the production of low-cost
rental housing. Under this program, HUD provided interest subsidies to lower a project’s
mortgage interest rate to as low as 1 percent. This program no longer provides insurance or
subsidies for new mortgage loans, but existing Section 236 properties continue to operate under
the program. The interest reduction payment results in lower operating costs and, thus, a reduced
rent structure.

The program’s basic rent is the rent that the owner must collect to cover the property’s operating
costs given the mortgage interest reduction payments made to the property. The program market
rent represents the rents needed to cover operating costs if the mortgage interest were not
subsidized. Members occupying program units are required to pay rents based on annual
income. At a minimum, members must pay at least basic rent for the program units but cannot
pay rent that exceeds the established market rents. Members paying less than the Section 236
market rent are considered assisted members. If members pay rents that are above the basic rent
amount, HUD defines the additional rent as excess income. Program participants are required to
resubmit the excess income to HUD monthly.

There are currently 142 units located at the property. Of the 142 units, 99 are assisted with
program funds, and the remaining 43 are assisted with Section 8 project-based vouchers. The
Association received $1.2 million in interest reduction payments for years 2006 through 2010.
For 2011, the Association received $231,707 in interest reduction payments.

Our audit objective was to determine whether the Association properly identified and remitted
excess income to HUD according to its regulatory agreement and whether it hired staff according
to applicable HUD regulations.




                                                4
                                        RESULTS OF AUDIT

Finding 1: The Association Did Not Identify and Remit Excess Income
to HUD as Required

The Association failed to accurately calculate rents and failed to remit excess income to HUD for
all 25 members reviewed. This condition occurred because the Association’s management agent
incorrectly believed that the Association was not required to establish market rents and obtain
HUD’s approval of the market rents. As a result, the Association members reviewed paid rents
well below the market rent regardless of their income, and the Association failed to remit at least
$172,9772 in excess income to HUD as required. Of this amount, three members of the
Association’s board of directors and its site manager paid at least $24,972 less in rent than HUD
required based on their income.



    The Association Did Not
    Comply With Its Regulatory
    Agreement


                      Section 4(a) of the Association’s regulatory agreement required that it establish
                      basic rents and market rents for each of its program units. Basic rent is the rent
                      that the owner must collect to cover the property’s operating costs given the
                      mortgage interest reduction payments made to the property, and it is the minimum
                      rent that members can pay. Market rent is the rent members would pay if their
                      mortgages were not subsidized. Section 4(b)(1) of the Association’s regulatory
                      agreement with HUD required its members to pay the greater of either the basic
                      rent or market rent with specific adjustments based on each member’s income.
                      The 25 members audited reported annual income as required; however, since the
                      Association did not believe it had to establish market rents, it collected only basic
                      rent amounts from its members regardless of their income. Because of the
                      reduced rent the higher income-earning members were asked to pay, HUD did not
                      receive any of the excess income it was due for the members. We, therefore,
                      recalculated the rents based on reported income for the 25 members and estimated
                      the rents that should have been charged from 2006 through 2010. Based on our
                      estimation, the Association needs to pay HUD at least $172,977 in excess income
                      that it failed to collect from 25 high-income-earning members for the 5 years
                      reviewed.




2
    See appendix C.

                                                        5
The Association Misinterpreted
HUD’s Requirements


             The Association‘s management agent incorrectly believed that the Association
             was not required to establish market rents or ensure that members paid rents based
             on their reported income. The management agent told us that since HUD did not
             determine the market rents for the Association, he believed he could charge all
             members the basic rent. The 25 Association members reviewed paid rents well
             below the market rent regardless of their income, and the Association failed to
             remit to HUD at least $172,977 in excess income. Of this amount, three members
             of the Association’s board of directors and its property manager received an
             estimated $24,972 in reduced rent.

Conclusion



             The Association needs to establish and implement written policies and procedures
             to ensure that rents and excess income are properly calculated in accordance with its
             regulatory agreement and applicable HUD regulations. For the 25 members whose
             annual income we reviewed, the Association did not collect and remit to HUD at
             least $172,977 in excess income for calendar years 2006 through 2010. We
             divided $172,977 by the 5 years and estimate that at least $34,595 will be put to
             better use over the next year by implementing the recommendations in this report.

Recommendations



             We recommend that the Director of HUD’s Washington, DC, Office of Multifamily
             Housing require the Association to

             1A.    Immediately establish market rents and obtain HUD’s approval of the
                    established market rents as required by its regulatory agreement and
                    applicable HUD regulations.

             1B.    Immediately recalculate rents for all members based on the most recent
                    annual recertification performed.

             1C.    Remit to HUD from non-Federal funds, $172,977 in excess income
                    identified.

             1D.    Identify and remit excess income for the remaining units that were not
                    reviewed during the audit.



                                               6
1E.   Establish and implement written policies and procedures to ensure that rents
      and excess income are properly calculated in accordance with its regulatory
      agreement and applicable HUD regulations, thereby ensuring that an
      estimated $34,595 will be put to better use.




                                7
Finding 2: The Association Did Not Always Use Proper Hiring
Practices
The Association hired an office manager who was closely related to the treasurer of its board of
directors, which was prohibited by its HUD-approved bylaws. This condition occurred because
the Association did not adhere to its own bylaws. Furthermore, the Association could not
provide documentation supporting that it amended its bylaws and that HUD approved its
amended bylaws. The Association’s failure to use the hiring protocol documented in its HUD-
approved bylaws resulted in an apparent conflict of interest and could potentially have increased
the risk to HUD funds.



 The Association Allowed an
 Apparent Conflict of Interest
 To Exist


               The Association’s HUD-approved bylaws at article 5, section 6, stated that a
               relative of its board of directors could not be an employee of the Association.
               However, the Association disregarded its own bylaws and hired an employee who
               was closely related to the treasurer of its board of directors. Specifically, the
               office manager was the daughter of the treasurer of the Association’s board of
               directors.

               At the time that the office manager was hired, the mother of the officer manager
               had been appointed as treasurer of the Association’s board of directors. The
               office manager is responsible for collecting member rents, preparing check
               requests, and overseeing the daily business operations of the Association. The
               treasurer of the board of directors is responsible for reviewing rent collections,
               approving check requests, and overseeing the financial operations of the entity.
               The Association’s hiring of a close relative of the treasurer of its board of
               directors created an apparent conflict of interest and violated the Association’s
               own HUD-approved bylaws.


 The Association Incorrectly
 Asserted That Its Hiring
 Practices Were Proper


               The Association’s management agent told us that hiring the office manager who
               was closely related to the treasurer of its board of directors was in accordance
               with its bylaws and HUD requirements. He explained that one of the
               Association’s goals was to employ members of the Association so that income
               could be earned. He claimed that the Association amended its bylaws and

                                                8
          removed the paragraph relating to the hiring of relatives. However, he could not
          provide documentation to support the amended bylaws and did not receive HUD’s
          approval of amended bylaws as required.

Recommendations


          We recommend that the Director of HUD’s Washington, DC, Office of Multifamily
          Housing require the Association to

          2A.     Comply with the approved bylaws or obtain written approval from HUD to
                  proceed with the amended version.




                                          9
                        SCOPE AND METHODOLOGY

We conducted the audit from May to October 2011 at the Association located at 1321 5th Street
Northwest, Washington, DC. The audit covered the period January 2006 to December 2010 but
was expanded when necessary to include other periods.

To accomplish our audit objective, we reviewed

       Regulations at 24 CFR Part 236, applicable HUD guidance, and other directives that
       govern the program.

       The Association’s regulatory agreement, audited financial statements, bylaws, and other
       program records.

       The Association’s employee listing and personnel hiring practices.

       A nonstatistical sample of 25 members that earned high income in 2011. The reviews
       included analyzing the members’ annual recertifications to determine whether rents and
       excess income were properly calculated.

We conducted interviews with responsible employees of the Association, its management agent,
and responsible HUD staff. We reviewed the reported income all of the members occupying
program units. Based on the members’ most recent reported income, we selected and reviewed
the 25 members who reported the highest income. The reported income ranged from $39,290 to
$127,161. We recalculated the rents based on income. For the 25 members whose annual
income we reviewed, the Association did not collect and remit to HUD at least $172,977 in
excess income for calendar years 2006 through 2010. We divided $172,977 by the 5 years and
calculated that HUD will put at least $34,595 to better use over the next year by implementing
the recommendations in this report.

To achieve our audit objective, we relied in part on computer-processed data. The data included
the Association’s expenditures, rent payments, and other computer-generated data. Although we
did not perform a detailed assessment of the reliability of the data, we did perform a minimal
level of testing and found the data to be adequate for our purposes.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               10
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal control was relevant to our audit
               objective:

                  Program operations - Policies and procedures that management has
                  implemented to reasonably ensure that a program meets its objectives.

               We assessed the relevant control identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies


               Based on our review, we believe that the following items are significant deficiencies:

                  The Association failed to accurately calculate rents and failed to remit excess
                  income to HUD (Finding 1).

                  The Association did not hire staff in accordance with its bylaws (Finding 2).


                                                 11
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

             Recommendation        Ineligible 1/ Funds to be put to
                 number                               better use 2/

                    1C                $172,977
                    1E                                     $34,595



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified.




                                            12
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1

Comment 2


Comment 1

Comment 3

Comment 4




                         13
Comment 5




Comment 6




Comment 7



Comment 7




Comment 8


Comment 8




            14
Comment 8




Comment 9




            15
16
                         OIG Evaluation of Auditee Comments

Comment 1   Paragraph 4(a) of the regulatory agreement did in fact require the Association to
            obtain the prior approval of HUD before it established the basic and market rents
            for each of its program units. However, HUD’s role is to review and approve the
            rents submitted by the Association. HUD’s role is not to acquire all of the needed
            information for all of the units and ascertain the basic and market rents for the
            Association.

Comment 2   Chapter 7, Section 6, paragraph 7-32 of HUD Handbook 4350.1, REV-1, does
            require a calculation based on a Rent Compilation Worksheet using the monthly
            HUD subsidy. Contrary to the Association’s assertion however, this information
            is readily available.


Comment 3   The Association states that the issue of excess income was settled in June 2009
            when it entered into a repayment plan with HUD. The Association entered into
            the repayment plan with HUD to pay back delinquent excess income which was
            accumulated prior to 2001 when there was a fully completed rent schedule. Our
            review focused on the time period of January 2006 to December 2010. During
            this time we found that rents were not determined in accordance with the
            regulatory agreement which resulted in tenants underpaying in rent by at least
            $172,977.

Comment 4   The Association states that the report’s conclusion of excess income being due
            from 2006 is erroneous. However, the audit evidence showed that the Association
            operated without established market rents for any of its program units and has
            allowed high-income earning tenants to only pay basic rents. Since the high
            earning tenants were only required to pay basic rents, the Association did not
            identify the amounts of excess income that was due HUD.

Comment 5   The Association stated that beginning in 2001, the management agent informed
            HUD that basic rents exceeded the market rents in some cases and that HUD had
            not provided any new market rents. However, HUD officials told us they have
            not received correspondence from the management agent regarding market rents
            and that the letter was not on file.

Comment 6   The purpose of our audit was to conduct an external audit of Second Northwest
            Cooperative Homes Association and its administration of its Section 236
            property. Our audit did not focus on the internal operations of HUD or its
            management review process.

Comment 7   The Association claims that since it did not collect excess income, it is not in
            violation of the regulatory agreement. On the contrary, during our review we
            found that the Association did not charge rents based on a percentage of the
            members’ incomes, which is in violation of the regulatory agreement signed with

                                            17
            HUD. Only basic rents were collected from all of the members, regardless of
            income, which resulted in the underpayment of $172,977 in rent between the
            years 2006 to 2010. When members of the Section 236 units underpay in rent, the
            loss is incurred in excess income (funds which are to be returned to HUD).

Comment 8   The Association stated that the report does not cite what bylaws that it is
            depending on as the “HUD approved by-laws.” The Association provided the
            OIG with only one version of HUD approved bylaws and this is what we are
            referring to.

Comment 9   The HUD approved bylaws, at Article 5, Section 6, state that a resident director or
            family member or relative of a resident director may not be an employee of the
            corporation. Moreover, the Association’s hiring of a close relative of the treasurer
            of its board of directors created an apparent conflict of interest and violated the
            Association’s own HUD-approved bylaws.




                                             18
Appendix C

         SUMMARY OF UNCOLLECTED EXCESS INCOME


                     Annual income                    Amount member        Excess income
                     for unit (most      Rent paid    should have paid       due HUD
     Member              recent)          for unit         in rent          (2006-2010)
          1             $129,905            $542            $691               $7,152
          2              129,287             542             691                8,940
          3              121,987             592             759               10,020
          4              110,078             495             631                6,528
          5              107,917             542             691                3,636
         6*                98,813            592             759                8,016
         7*                86,951            542             691                8,940
          8                82,658            495             631                8,160
          9                82,466            542             691                8,940
         10                78,768            542             691                8,940
         11                73,214            495             631                5,352
         12                68,568            495             631                6,684
         13                67,843            542             691                5,364
         14                63,499            495             631                1,224
         15                56,630            542             691                5,364
         16                55,676            495             631                6,528
         17                55,073            495             631                6,108
         18                53,574            495             631                6,528
        19*                53,048            592             759                8,016
         20                49,453            542             691                8,940
         21                48,243            542             691                6,657
         22                47,885            592             759                8,304
         23                44,114            595             759                8,880
         24                39,185            592             759                9,348
         25                37,350            495             631                   408
     Total                                                                   $172,977

*Represents members who are also members of the Association’s board of directors




                                             19
